Report No. D-2008-110         August 8, 2008




    The Cost, Oversight, and Impact of
         Congressional Earmarks
          Less Than $15 Million
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
DAPS                          Document Automation and Production Service
DOI                           Department of the Interior
EPA                           Environmental Protection Agency
FTE                           Full Time Equivalent
GAO                           Government Accountability Office
HHS                           Health and Human Services
IG                            Inspector General
OMB                           Office of Management and Budget
USDA                          U.S. Department of Agriculture
                                   INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704




                                                                            July II, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (ADVANCED
                  SYSTEMS AND CONCEPTS)
              UNDER SECRETARY OF DEFENSE
                   (COMPTROLLER)/CHIEF FINANCIAL OFFICER
              ASSISTANT SECRETARY OF THE ARMY
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
              ASSISTANT SECRETARY OF THE NAVY
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
              ASSISTANT SECRETARY OF THE AIR FORCE
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
              DIRECTOR, DEFENSE ADVANCED RESEARCH
                  PROJECTS AGENCY
              DIRECTOR, WASHINGTON HEADQUARTERS SERVICE
              DIRECTOR, OFFICE OF ECONOMIC ADJUSTMENT




SUBJECT: Report on The Cost, Oversight, and Impact of Congressional Earmarks Less
          Than $15 Million (Report No. D-2008-II0)


        Weare providing this report for your infOlmation and use. We performed the
audit in response to a Congressional request.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Amy J. Frontz at (303) 676-7392 (DSN926-7392) or Mr. Joseph A. Powell at
(703) 601-5953 (DSN329-5953). The team members are listed inside the back cover.




                               f~Q·mJ
                                Patricia A. Marsh, CPA
                              Assistant Inspector General
                           Defense Financial Auditing Service
                   Report No. D-2008-110 (Project No. D2007-D000FP-0254.001)
                                         August 8, 2008




              Results in Brief: The Cost, Oversight, and
              Impact of Congressional Earmarks Less
              Than $15 Million

What We Did
Our objective was to determine the total cost
and the oversight of Congressional earmarks
within the Department of Defense. We also
determined the overall impact of Congressional
earmarks on the primary mission and goals of
the Department of Defense. The 219 earmarks
we selected to review were each less than
$15 million. We previously selected earmarks of
$15 million and more and reported those results
in Report No. D-2008-073.

What We Found
   •   Congress included 2,656 earmarks
       (totaling $12.14 billion) in the FY 2007
       DoD Appropriations Act Conference
       Report. Of these, 2,587 earmarks were
       each less than $15 million (totaling
       $5.87 billion).
   •   DoD generally performs oversight of
       earmarks identical to the oversight of
       other DoD contracts and activities;
       however, of the 219 earmarks reviewed
       we identified 9 provided monies to other
       Federal agencies to contract.
   •   DoD accounted separately for
       152 earmarks and commingled
       67 earmarks with other funds.
   •   DoD does not need centralized tracking
       of funding execution of earmarks at the
       DoD level for earmark oversight.
   •   Some earmarks do not support the DoD
       mission. Specifically, we identified
       4 earmarks that did not support the
       mission and goals of DoD.
Table of Contents

Results in Brief                                                            i

Introduction

       Objectives                                                           1
       Background                                                           1


Audit Results

       Cost, Oversight, and Impact of Congressional Earmarks                3

Appendices

       A. Scope and Methodology                                             9
              Prior Coverage                                               10
       B. Summary of Earmarks Reviewed by Military Department and Agency   11
       C. Definitions of Earmarks                                          12
Introduction
Objectives
Our objective was to determine the total cost and the oversight of Congressional
earmarks within the Department of Defense. We also determined the overall impact of
Congressional earmarks on the primary mission and goals of the Department of Defense.

Background
We conducted the audit in response to a request by the Honorable Tom Coburn, M.D.,
U.S. Senator from Oklahoma. The Senator was concerned about the cost, impact, and
—in some cases—the ethics of Congressional earmarks. The request included the
following earmark definition.

              For purposes of this request, a Congressional earmark is a provision of
              law, a directive, or item represented in any table, chart, or text
              contained within a joint explanatory statement or a report
              accompanying a bill (as applicable), that specified the identity of an
              entity or project, including a defense system, for which funds are
              authorized or made available in that law (or conference report or bill)
              and that was not requested by the President in a budget submission to
              Congress; and the amounts of the funds so authorized or made
              available.

Because there is no single definition of the term earmark, we are including in Appendix C
other definitions of earmarks from the U.S. Senate, the U.S. House of Representatives,
the Congressional Research Service, the Office of Management and Budget (OMB) and
DoD, and the Government Accountability Office (GAO).

The DoD mission is to provide the military forces needed to deter war and to protect the
security of our country. The funding profile for FY 2007 in the DoD FY 2009 budget
request showed that in FY 2007 the DoD received $438 billion to maintain a high level of
military readiness, develop and procure new weapon systems for ensuring U.S. battlefield
superiority, and support Service members and their families. The funding profile request
also showed that in FY 2007 the DoD received an additional $154 billion for the Global
War on Terror. Therefore, the funding profile for FY 2007 in the DoD FY 2009 budget
request showed that the DoD received a total of $592 billion.

For the purposes of this audit, we used the FY 2007 DoD Appropriations Act
Conference Report to determine Congressional earmarks for the Department of Defense.
According to the definition from Senator Coburn’s Congressional request, the FY 2007
Appropriations Act Conference Report contained 2,656 Congressional earmarks totaling
$12.14 billion.

This is the second report in response to Senator Coburn’s request. This report provides
the results of our review of Congressional earmarks less than $15 million. The first
report provided the results of our review of Congressional earmarks equal to and greater
than $15 million. We issued Report No. D-2008-073, “Cost, Oversight, and Impact of
Congressional Earmarks,” on March 31, 2008.




                                                1
Cost, Oversight, and Impact of
Congressional Earmarks
Senator Coburn’s Congressional request asked the DoD Office of Inspector General to
determine the total number and cost of Congressional earmarks, the oversight of
earmarks compared to oversight of other DoD contracts, and the overall impact of
earmarks on advancing the primary mission and goals of the Department of Defense.


Total Number and Cost of Congressional Earmarks
Congressional Request 1: The total number and cost, including the cost of the
earmark itself and related costs such as staff time and administration, of
Congressional earmarks within the programs you monitor.

The FY 2007 Appropriations Act Conference Report to accompany the FY 2007 DoD
Appropriations Act (109-676) had 2,656 Congressional earmarks totaling $12.14 billion.
Of these earmarks, 2,587 earmarks were each under $15 million and totaled $5.87 billion.
We selected a sample of 219 earmarks each less than $15 million. Of the 219 earmarks,
3 were transfers of funds, totaling $11.6 million. A transfer moves appropriated funds
from one account within the U.S. Treasury to another account, or from one program to
another program within a U.S. Treasury account. Of the 219 earmarks, 1 earmark for
$800 thousand was used for payments to Air Force military personnel instead of to
organizations. The remaining 215 Congressional earmarks totaled $874.5 million.

DoD does not have cost accounting systems to record separately the costs related to
Congressional earmarks, such as staff time and administration. Therefore, we could not
determine those costs.


Oversight of Earmarks Compared to Oversight of Other
DoD Expenditures
Congressional Request 2: What oversight is conducted on earmarks and how this
compares to the oversight conducted on other expenditures such as grants and
contracts.

The DoD personnel we interviewed and the respondents to our data call said that DoD
performs oversight of earmarks identical to the oversight of other expenditures. The
similarities in oversight functions included contract administration, accounting for funds,
and tracking full time equivalents. We also considered requirements for centralized
tracking of fund execution and the number of earmark contracts awarded.

        Contract Administration. Of the 219 earmarks, 9 provided monies to other
Federal agencies to contract. For example, the DoD Office of Economic Adjustment
transferred a $12 million earmark to the Federal Railroad Administration. The earmark
was for railroad track realignment at Fort Wainwright Eielson Air Force Base. The
Federal Railroad Administration awarded the earmark funds as a grant to the Alaskan
Railroad Corporation to implement the project.




                                             3
Of the 219 earmarks we reviewed, 177 had contracts awarded and 42 did not have
contracts awarded. The DoD Office of Inspector General is performing a separate, more
detailed audit addressing the contract administration of a smaller number of FY 2005
earmarks. The audit of FY 2005 earmarks includes 2 of the 177 earmarks with contracts
awarded in FY 2007.

        Accounting for Funds. DoD accounted separately for 152 earmarks and
commingled 67 earmarks with other funds. For example, Army reported that several
earmarks were commingled with funds for larger projects because the Army Commands
did not have separate accounting codes for the earmarks.

We noted that DoD does not have criteria requiring centralized tracking of funding
execution of Congressional earmarks at the DoD level in our report, “Cost, Oversight,
and Impact of Congressional Earmarks,” Report No. D-2008-073, March 31, 2008
(earmarks equal to or more than $15 million). The GAO report, “Congressional
Directives: Selected Agencies Processes for Responding to Funding Instructions,”
January 2008, noted a lack of visibility of funds execution of Congressional earmarks at
the DoD level and the Under Secretary of Defense (Comptroller) does not have a
requirement for maintaining visibility over funding executions of Congressional earmarks
at its level. The Under Secretary of Defense (Comptroller) has not received requests for
the funding execution status of Congressional earmarks. Should the Under Secretary of
Defense (Comptroller) receive a request for funding execution status of a Congressional
earmark, DoD will refer the request to the Military Department or Defense agency.

        Full Time Equivalents. The Military Departments and all but one of the Defense
agencies do not maintain Full Time Equivalent (FTE) data for earmark oversight. FTE is
a means to measure a worker’s involvement in a project, in this case the oversight of
earmarks. An FTE of 1.0 means the person is equivalent to a full time worker; an
FTE of 0.5 is a person who works only half time. The Office of the Deputy Under
Secretary of Defense (Advanced Systems and Concepts), the agency that maintained FTE
data, reported that it assigned 3.55 FTEs to perform the technical, financial, and
contractual activities required for managing all six of its Partnership Intermediary
Agreements (a type of earmark). One of these six agreements was included in our sample
of 219 earmarks. The average FTE for this one agreement (earmark) was about one-half
person per year.


Overall Impact of Earmarks on Advancing the Primary
Mission and Goals of the Department of Defense

Congressional Request 3: The overall impact of earmarks on advancing the
primary mission and goals of the agency [DoD].

The Congressional earmarks less than $15 million generally supported the mission and
goals of the DoD. We did identify through analysis an additional four earmarks that did
not support the DoD mission, for a total of five. See Appendix B for a summary by
Military Department and Defense agency of earmarks reviewed. Table 1 identifies the
five earmarks that did not support the DoD mission.




                                           4
                Table 1. Earmarks Not Supporting DoD Mission

                   Description of Earmark                            Amount
                                                                     (millions)
  Navy-Digitize DoD Manuals                                             10.0
  Air Force-Preparation for Educators and Students                        1.1
  Office of Economic Adjustment—George Air Force
   Base Infrastructure                                                   2.4
  Washington Headquarters Service—Center for Applied
  Science and Technology                                                 2.6

  Total Amount of Sampled Earmarks Not Supporting
   the DoD Mission                                                     $16.1


1. Navy—Digitize DoD Manuals. The earmark for digitization of DoD manuals
   does not support the DoD mission because it is not consistent with DoD policy
   that the Document Automation and Production Service (DAPS) is the preferred
   provider for document conversion and automation services. The earmark fund
   was used for converting hard copy technical data to electronic formats but not
   through DAPS. DAPS did not provide input for this earmark, and DAPS did not
   have any connection with this earmark. DoD has the ability within DAPS to
   readily develop electronic data from hard copy documentation should DoD
   really require this digitization, without incurring the cost of this earmark. In
   addition, the project manager for the earmark had not informed Washington
   Headquarters Service of their intent to digitize DoD Manuals, as required by
   DoD Instruction 5025.01.

2. Air Force—Preparation for Educators and Students. The earmark for the
   partnership for innovative preparation of educators and students does not advance
   the DoD mission to provide the military forces needed to deter war and to protect
   the security of our country. The earmark funds were issued by Air Force
   Research Laboratory and awarded to the University of Colorado, Colorado
   Springs Campus. The earmark funds are provided to fund activity to increase the
   numbers of kindergarten through college science, technology, engineering, and
   mathematics students. The purpose of the earmark was not consistent with the
   primary mission and goals of DoD.

3. Office of Economic Adjustment—George Air Force Base Infrastructure. In
   FY 2007, an earmark provided $2.4 million to Victorville, California, and the
   Southern California Logistics Airport related to the George Air Force Base
   closure. The Office of Economic Adjustment entered into an agreement with the
   Department of Commerce, Economic Development Administration, to facilitate
   the execution of this $2.4 million earmark. Using Department of Commerce
   Economic Development Administration criteria, this grant was executed to
   provide the city of Victorville economic adjustment for the installation of roads,
   water, sewer, and utilities. Victorville continues to experience economic growth
   and opportunities and as such no longer require assistance attributable to the 1992
   Base Realignment and Closure of George Air Force Base. Therefore, while this
   earmark may contribute to the Department of Commerce Economic Development
   Administration mission for community revitalization, it does not contribute to the
   DoD mission.


                                        5
   4. Washington Headquarters Service, Contracting Center of Excellence—
      Center for Applied Science and Technology. We determined that this
      $2.6 million earmark redevelops buildings for the benefit of private industry and a
      university, and therefore does not contribute to the DoD mission of providing
      military forces needed to deter war and to protect the security of our country. The
      FY 2007 Defense Appropriations Act Joint Conference Report, Public
      Law 109-676, Section 8088, provided the Center for Applied Science and
      Technologies at Jordan Valley Innovation Center a grant appropriation for
      $2,600,000 for Phase II of the project. The Jordan Valley Innovation Center is a
      Government-sponsored initiative to encourage industrial development through the
      creation of a research center in Springfield, Missouri. DoD, in association with
      Missouri State University, is redeveloping the former Missouri Farm Association
      feed mill into a center for nanotechnology. DoD is providing funding to complete
      redevelopment of the main feed mill structure, and Missouri State University
      is negotiating with private firms to lease most of the space while reserving part
      of the space for university functions. Phase II of the project consists of
      demolishing part of the existing facility and renovating it to accommodate
      advanced manufacturing for use by private firms. As such, we cannot identify
      how the DoD grant to redevelop buildings for the benefit of private industry and
      Missouri State University contributes to the DoD mission. Washington
      Headquarters Service concurred that this earmark did not support the DoD
      mission.

We also identified an earmark that the legislation clearly intended to support a DoD
mission by fostering collaborations and partnerships among DoD, academia, and
industry, with emphasis on small business. However, certain expenditures of the funding
were not consistent with the original intent of the funding. Specifically, the Deputy
Under Secretary of Defense (Advanced Systems and Concepts) $6.4 million earmark,
DoD Springboard, primarily supports educational efforts, travel, and conferences that do
not have a DoD connection and do not support the DoD mission and goals. For example,
DoD SpringBoard covered a portion of the travel cost for a team of five high school
students to compete in the National Association for Homebuilders student competition;
students used computer-aided design software to develop architectural plans for a home
using engineering standards. In another case, DoD SpringBoard intends to support a
2008 scientific summer academy module in Glacier Bay National Park in coordination
with the Alaska Summer Research Academies of the University of Alaska. This module
would be a 10-day scientific expedition for up to nine students, focusing on geology,
biologic succession, and oceanography. These examples do not show support for the
DoD mission.


Summary
The total number of the Congressional earmarks for DoD in FY 2007 was 2,656 with a
funding level totaling $12.14 billion. Of these earmarks, 2,587 were less than
$15 million (totaling $5.87 billion). DoD performs oversight of earmarks identical to the
oversight of other DoD contracts and activities. We identified 9 earmarks that provided
monies to other Federal agencies to contract. DoD commingled and did not separately
account for 67 of the 219 earmarks. The mission activities funded by the Congressional
earmarks were generally consistent with fulfilling the DoD mission. However, we did


                                            6
identify four earmarks that did not support DoD mission and goals, and one earmark that
a portion of the expenditures was not consistent with the original intent of the funding.




                                            7
Appendix A. Scope and Methodology
We conducted this performance audit from August 2007 through May 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our conclusions
based on our audit objectives.

We obtained and reviewed the FY 2007 Appropriation Act Conference Report to
accompany the FY 2007 Department of Defense Appropriations Act (H. Rept. 109-676)
for DoD to determine the cost of Congressional earmarks. We compared the FY 2007
Appropriation Act Conference Report to a compilation of Congressional earmarks
prepared by the Under Secretary of Defense (Comptroller). We determined the number
and cost of Congressional earmarks by reviewing and adding the amount from the
compilation provided by the Under Secretary of Defense (Comptroller).

We obtained points of contact from the Under Secretary of Defense (Comptroller) for
each Congressional earmark selected for review to determine oversight of Congressional
earmarks. We determined oversight for the Congressional earmarks through inquiry with
the points of contact.

We inquired with the points of contact whether the Congressional earmarks were
consistent with and provided support for the DoD mission to determine the overall impact
of Congressional earmarks on advancing the DoD mission. We obtained and reviewed
copies of the contracts and grants awarding the Congressional earmarks. The scope of
the audit or evaluation was limited in that we did not review the management control
program.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Use of Technical Adjustment
The DoD Office of Inspector General Quantitative Methods Directorate assisted with the
audit in selecting a sample.




                                            9
Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (DoD IG) ), the Environmental Protection
Agency (EPA), the U.S. Department of Agriculture (USDA), the Department of Health
and Human Services (HHS), and the U.S. Department of the Interior (DOI) issued
6 reports discussing Congressional earmarks. Unrestricted GAO reports can be accessed
over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-08-209, “Selected Agencies Processes for Responding To
Funding Instructions,” January 2008

DoD IG
DoD IG Report No. D-2008-073, “Cost, Oversight, and Impact of Congressional
Earmarks,” March 31, 2008

EPA
Report No. 2007-P-00024, “Number of and Cost to Award and Manage EPA Earmarks
Grants, and the Grants’ Impact on the Agency’s Mission,” May 22, 2007

USDA
Report No. 50601-15-Te, “Review of Fiscal Year 2005 Congressional Earmarks,” March
2007

HHS
“Review of Fiscal Year 2005 Congressional Earmarks Provided to the Department of
Health and Human Services,” February 6, 2007

DOI
“Independent Analysis of Earmarked Funds for the U.S. Department of the Interior (DOI)
for Fiscal Year 2006,” January 31, 2007




                                          10
Appendix B. Summary of Earmarks
Reviewed By Military Department and
Agency
We asked the points of contact for each of the 219 earmarks in our sample the questions
that we addressed in the body of this report. Those questions are answered in this table.
A more detailed breakout of the information comprising this table may be obtained upon
request.

          Summary of Earmarks Reviewed by Department and Agency
Department   Number of    Is Earmark Contract or   Does Earmark Advance
and Agency Congressional Budget Oversight Done        the DoD Mission?
             Earmarks      the Same as for Other
                                  Activities?
                              Yes             No      Yes          No
Army             79            75              4       78           0
Navy             45            45              0       45           0
Air Force        51            51             0        51           0
Other DoD
 Agencies        44            39              5       44           0
Total           219           210              9      218           0




                                           11
Appendix C. Definitions of Earmarks
We conducted this audit at the request of the Honorable Tom Coburn, U.S. Senator
from Oklahoma. We used the definition of earmark provided in the request. The
Congressional Research Service has noted there is not a sole definition of the term
earmark accepted by all observers of the appropriation process. According to the
Congressional Research Service:

          There is not a single specific definition of the term earmark accepted by all practitioners and
observers of the appropriations process, nor is there a standard earmark practice across all 13 regular
appropriations bills. According to the Congressional Quarterly's American Congressional Dictionary,
under the broadest definition ‘virtually every appropriation is earmarked.’ In practice, however, earmarks
are generally defined more narrowly, often reflecting procedures established over time that may differ from
one appropriation bill to another. For one bill, an earmark may refer to a certain level of specificity within
an account. For other bills, an earmark may refer to funds set aside within an account for individual
projects, locations, or institutions.

Although there is not a sole definition of the term earmark, we have identified the
following definitions for earmarks from the U.S. Senate, the U.S. House of
Representatives, the Congressional Research Service, OMB and DoD, and GAO.

1. Senate Rules
PUBLIC LAW 110–81
September 14, 2007

         Subtitle B—Earmark Reform
         SEC. 521. CONGRESSIONALLY DIRECTED SPENDING.
         The Standing Rules of the Senate are amended by adding
         at the end the following:
         RULE XLIV
         CONGRESSIONALLY DIRECTED SPENDING AND RELATED ITEMS
         The term ‘congressionally directed spending item’ means a provision or report language included
         primarily at the request of a Senator providing, authorizing, or recommending a specific amount of
         discretionary budget authority, credit authority, or other spending authority for a contract, loan,
         loan guarantee, grant, loan authority, or other expenditure with or to an entity, or targeted to a
         specific State, locality or Congressional district, other than through a statutory or administrative
         formula-driven or competitive award process.

2. House Rules
RULES OF THE HOUSE OF REPRESENTATIVES
ONE HUNDRED TENTH CONGRESS
[Established with the adoption of H. Res. 6 on January 4th and 5th, 2007]

         RULE XXI
         RESTRICTIONS ON CERTAIN BILLS
         9(d) For the purpose of this clause, the term ‛congressional earmark’ means a provision or report
         language included primarily at the request of a Member, Delegate, Resident Commissioner, or
         Senator providing, authorizing or recommending a specific amount of discretionary budget



                                                     12
       authority, credit authority, or other spending authority for a contract, loan, loan guarantee, grant,
       loan authority, or other expenditure with or to an entity, or targeted to a specific State, locality or
       Congressional district, other than through a statutory or administrative formula driven or
       competitive award process.

3. Congressional Research Service

       Provisions associated with legislation (appropriations or general legislation) that specify certain
       congressional spending priorities or in revenue bills that apply to a very limited number of
       individuals or entities. Earmarks may appear in either the legislative text or report language
       (committee reports accompanying reported bills and joint explanatory statement accompanying
       a conference report.

4. OMB/DoD

       Funds provided by the Congress for projects or programs where the congressional direction (in
       bill or report language) circumvents Executive Branch merit-based or competitive allocation
       processes, or specifies the location or recipient, or otherwise curtails the ability of the Executive
       Branch to manage critical aspects of the funds allocation process.

   •   Earmarks vs. Unrequested Funding. At the broadest level, unrequested funding is any
       additional funding provided by the Congress—in either bill or report language—for
       activities/projects/programs not requested by the Administration. Earmarks are a subset of
       unrequested funding. The distinction between earmarks and unrequested funding is programmatic
       control or lack thereof of in the allocation process.

   •   Earmarks and Programmatic ‛Control.’ If the congressional direction accompanying a
       project/program/funding in an appropriations bill or report or other communication purports to
       affect the ability of the Administration to control critical aspects of the awards process for the
       project/program/funding, this IS an earmark. Note: The definition of ‛control critical aspects’
       includes specification of the location or recipient or otherwise circumventing the merit-based or
       competitive allocation process and may be program specific. However, if the Congress adds
       funding and the Administration retains control over the awards process for the
       project/program/funding, it is NOT an earmark; it is unrequested funding.

   •   Earmarks Include:

           1.   Add-ons. If the Administration asks for $100 million for formula grants, for example,
                and Congress provides $110 million and places restrictions (such as site-specific
                locations) on the additional $10 million, the additional $10 million is counted as an
                earmark.
           2.   Carve-outs. If the Administration asks for $100 million and Congress provides $100
                million but places restrictions on some portion of the funding, the restricted portion is
                counted as an earmark.
           3.   Funding provisions that do not name a recipient, but are so specific that only one
                recipient can qualify for funding.

OMB has used this definition to gather data on earmarks internally. This definition is
similar to the definition that the Congress recently developed for disclosing earmarks in
spending legislation (H. Res. 6 and the Senate-passed version of S. 1).




                                                     13
5. GAO

     Congress or its committees may use formal vehicles to provide written funding instructions for
     agencies or to express preferences to agencies on the use of funding. These formal vehicles
     include statutes (i.e., authorization or appropriations acts) or House, Senate, and conference
     reports comprising significant parts of the legislative history for a given statute. Often referred to
     as ‛earmarks,’ these written instructions range from broad directions on policy priorities to specific
     instructions.




                                                 14
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Patricia Marsh
Amy J. Frontz
Joseph A. Powell
Lusk Penn
Kandasamy Selvavel
Donovan Quimby
Yolanda Bailey
Ben Meade
Mike Davitt
Shanika LeGare
Ralph Dickison
Mary McBarron
Joseph Calise
Henry Matthews
Kea Riddick
William Saunders
Latesha Goode
Erin S.-E. Hart
